No. 20-437
IN THE
SUPREME COURT OF THE UNITED STATES

United States,
Petitioner,
v.
Refugio Palomar-Santiago,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The respondent, Refugio Palomar-Santiago, asks for leave to file the enclosed
Brief in Opposition to Petition for a Writ Certiorari without prepayment of costs and
to proceed in forma pauperis in accordance with Supreme Court Rule 39 and 18
U.S.C. § 3006A(d)(7). The filing of this brief is a continuation of the representation of
Mr. Palomar-Santiago under a Criminal Justice Act appointment by the Federal
Public Defender for the District of Nevada. See ECF 14, United States v. Palomar1

Santiago, No. 3:17-cr-00116 (D. Nev. July 30, 2018). In accordance with
§ 3006A(d)(7), no affidavit need be filed under Supreme Court Rule 39.

Respectfully submitted,
Rene L. Valladares
Federal Public Defender
Cristen C. Thayer
Aarin E. Kevorkian
Ellesse Henderson
Assistant Federal Public Defenders
OFFICE OF THE
FEDERAL PUBLIC DEFENDER
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577

Jeffrey L. Fisher
Counsel of Record
O’MELVENY & MYERS LLP
2765 Sand Hill Road
Menlo Park, CA 94025
(650) 473-2600
jlfisher@omm.com
Bradley N. Garcia
Ephraim McDowell
O’MELVENY & MYERS LLP
1625 Eye Street, NW
Washington, DC 20006
(202) 383-5300

2

